<html>
<title> - A REVIEW OF THE TRANSITION ASSISTANCE PROGRAM (TAP)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


          A REVIEW OF THE TRANSITION ASSISTANCE PROGRAM (TAP)

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, JANUARY 27, 2015

                               __________

                            Serial No. 114-4

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
         
                              ____________
                              
                              
                         U.S GOVERNMENT PUBLISHING OFFICE
97-995                          WASHINGTON : 2016                         
                   
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA COLEMAN RADEWAGEN, American        Member
    Samoa                            DINA TITUS, Nevada
RYAN COSTELLO, Pennsylvania          KATHLEEN RICE, New York
MIKE BOST, Illinois                  JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            C O N T E N T S

                              ----------                              

                       Tuesday, January 27, 2015

                                                                   Page

A Review of the Transition Assistance Program (TAP)..............     1

                           OPENING STATEMENTS

Brad Wenstrup, Chairman..........................................     1
Mark Takano, Ranking Member......................................     2

                               WITNESSES

Mr. Davy Leghorn, Assistant Director, The Veteran Education and 
  Employment Commission, The American Legion.....................     4
    Prepared Statement...........................................    34
Mr. Ryan M. Gallucci, Deputy Director, NVS, Veterans of Foreign 
  Wars of the United States......................................     5
    Prepared Statement...........................................    39
Ms. Valrica Marshall Dunmyer, Chief of Staff and Chief Financial 
  Officer, Student Veterans of America...........................     7
    Prepared Statement...........................................    47
Colonel David W. Sutherland, U.S. Army (Ret.) Chairman and Co-
  Founder, Easter Seals Dixon Center.............................     9
    Prepared Statement...........................................    51
Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, VBA, U.S. Department of Veterans Affairs..........    23
    Prepared Statement...........................................    62
Ms. Teresa W. Gerton, Deputy Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor......    25
    Prepared Statement...........................................    68
Dr. Susan Kelly,, Director, Transition to Veterans Program 
  Office, Office of the Under Secretary of Defense for Personnel 
  and Readiness, Department of Defense...........................    26
    Prepared Statement...........................................    76

 
          A REVIEW OF THE TRANSITION ASSISTANCE PROGRAM (TAP)

                              ----------                              


                       Tuesday, January 27, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[chairman of the subcommittee] presiding.
    Present:  Representatives Wenstrup, Costello, Radewagen, 
Takano, Titus, and Rice.

          OPENING STATEMENT OF CHAIRMAN BRAD WENSTRUP

    Dr. Wenstrup. Well good afternoon, everyone. I want to 
welcome you all to the first hearing of the Subcommittee on 
Economic Opportunity for the 114th Congress. I have to tell you 
I am very honored to serve as chairman of this subcommittee and 
I look forward to working with Ranking Member Takano and other 
members to improve economic opportunities for our nation's 
veterans. Before we begin I will tell you that Mr. Coffman may 
join us and I ask unanimous consent that our colleague Mr. 
Coffman be allowed to join us at the dais and ask questions. 
Hearing no objection, so ordered.
    We are here today to discuss implementation of the 
Transition Assistance Program, or TAP. TAP is a critically 
important step for today's servicemembers because if we can get 
TAP right for them at the onset of their transition from active 
duty I believe we can mitigate many other issues that have 
plagued and continue to plague previous generations of 
America's veterans.
    The information on financial management, job search skills, 
and veteran benefits are light years away from what was being 
provided to servicemembers under previous versions of TAP, 
which was called by many death by PowerPoint. And while the 
structure of TAP has been greatly improved we can and should do 
more and I want to briefly make a few points.
    It has been suggested by some that there is no need to 
continue to provide TAP in a classroom setting and that the 
online version is sufficient. While I agree that the online 
version can be helpful it was designed to only be a supplement 
to the classroom version and not to replace it. I understand 
that in a constrained fiscal environment the services have had 
the difficult task of implementing the VOW Act provision which 
made TAP mandatory. But I believe that focusing only on the 
online version would shortchange our servicemembers of 
critically important information.
    I also want to echo the comments from the past two chairmen 
of this subcommittee by saying that I believe DoD is missing 
the mark by not making the education track mandatory for those 
servicemembers who are planning to use their G.I. Bill benefits 
upon transition. Under the right circumstances the Post 9/11 
G.I. Bill can provide over $300,000 worth of benefits to a 
veteran and with thousands of schools and training programs 
clamoring for veteran students we must do everything we can to 
make sure our servicemembers are provided with all the 
information and tools they need to make an informed choice on 
the right school and how to use their educational benefits. Now 
from everything I have heard the education track does a great 
job in preparing servicemembers as they make this life changing 
choice and I believe it should be mandatory for servicemembers 
who are choosing to use their G.I. Bill benefits.
    Another issue that I hope to hear more about today is how 
VA, DoD, and DoL are measuring and tracking performance and 
long term outcomes of TAP. Without measurable outcomes it is 
impossible to know for certain if this new curriculum is 
working. I know that hard statistics for a program like this 
can be difficult but I look forward to learning more about the 
steps the agencies have taken to track performance. Before I 
recognize the ranking member I do want to commend DoD, VA, and 
the Department of Labor for working together to transform TAP 
over the past two years. While many strides have been made a 
recent report from the VA's Office of Economic Opportunity 
highlighted a new challenge. The report stated that while 
unemployment rates for veterans continue to remain low, over 
half of the Post 9/11 veterans will face a period of 
unemployment upon transition. Helping facilitate a smooth 
transition so that veterans avoid this period of unemployment 
is our challenge and I look forward to exploring ways to 
address this challenge head on in today's hearing.
    I now recognize Ranking Member Takano for his opening 
comments.

        OPENING STATEMENT OF RANKING MEMBER MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman, and welcome to the 
Subcommittee on Economic Opportunity, especially to our new 
members Ms. Radewagen and Ms. Rice. We welcome you. I know we 
will accomplish a lot under your stewardship, Mr. Chairman, of 
the committee during this session. Also thank you for your 
continued service to the United States Army and we are excited 
to have that level of experience and understanding that you 
bring from your experience in tackling the economic issues 
facing our veterans.
    Transitioning from the military is a defining moment in all 
of our servicemembers' lives. Upon exiting the military at a 
minimum servicemembers should understand the resources 
available through their branch of service, the benefits 
awaiting them as veterans, and perhaps most importantly how to 
find a job. From a retiring commander to a one-term enlisted 
soldier leaving the military means different things to 
different individuals. There is no one answer as to how we can 
prepare these individuals for what comes next. Yet we have a 
responsibility to give them the best information available to 
help them focus on their next move as civilians. The Transition 
Assistance Program, or TAP, has gone through several iterations 
over the last several years and we expect it to continue to 
evolve as better practices are realized and implemented. The 
latest concept of TAP is Transition GPS, which is designed to 
deliver a wide array of information over a five-day period. One 
of the most important aspects of the program is a briefing on 
financial responsibility and access to financial counseling 
while still on active duty. Too many of our younger 
servicemembers are leaving the military without thinking about 
their financial futures and having access to a trained 
professional who can help guide them toward financial 
responsibility is extremely important. I look forward to 
hearing Dr. Kelly speak to the financial responsibility 
briefing and other aspects of the DoD portion of this training.
    I am also looking forward to hearing from Mr. Coy about the 
VA portion of the training and how veterans are learning about 
how to access their veterans benefits. The Post 9/11 G.I. Bill 
is an incredible education benefit and I am very interested in 
hearing more about how servicemembers are learning about the 
optional education track briefing. Last Congress I was an 
original cosponsor to the legislation introduced by Congressman 
Flores that would have made the education track mandatory. In 
many instances student veterans are unaware of the differences 
between education institutions, the quality of education at 
those institutions, and the likelihood of finding a job upon 
graduation. The education track remains optional for the time 
being and I hope to hear from our agency witnesses that 
servicemembers are being encouraged to take this optional 
course if they are planning to use their education benefits.
    Finally some portions of the Transition GPS training are 
now interactive and online. I am very interested in learning 
more about how servicemembers are utilizing these resources. I 
would also like to welcome our guests from the Veterans of 
Foreign Wars, the American Legion, Student Veterans of America, 
and Easter Seals Dixon Center. I look forward to hearing what 
some of the veterans you speak with are saying about TAP and 
any recommendations you may have.
    Thank you, Mr. Chairman, and I yield back.
    Dr. Wenstrup. I want to thank the Ranking Member for his 
comments and also I would like to reiterate what you said about 
welcoming our new members. I think that you should know that 
this is a committee, a subcommittee, that has great opportunity 
to really do a lot of benefit for our members of our country 
that serve in uniform, and for their families and their lives 
as they move forward and they leave the military. But now I 
would like to welcome our first panel to the witness table. 
First we have Mr. Davy Leghorn, Assistant Director of the 
Veteran Education and Employment Commission for the American 
Legion; Mr. Ryan Gallucci, Deputy Director of the National 
Veterans Service for the Veterans of Foreign Wars; Ms. Valrica 
Dunmyer, Chief of Staff and Chief Financial Officer for Student 
Veterans of America; and finally Colonel David Sutherland, 
Chairman and Co-Founder of the Easter Seals Dixon Center. I 
want thank you all for being here, for your service to our 
nation, and for those in uniform, and for your continued hard 
work and advocacy for veterans. Mr. Leghorn, we will begin with 
you. You are now recognized for five minutes.

                 STATEMENT OF MR. DAVY LEGHORN

    Mr. Leghorn. Chairman Wenstrup, Ranking Member Takano, and 
distinguished members of the subcommittee, on behalf of 
National Commander Michael Helm and the 2.4 million members of 
the American Legion, we thank you for this opportunity to 
testify at this hearing on improving the Transition Assistance 
Program and veterans' transition in general.
    Over the past two years the American Legion has intensely 
scrutinized the new TAP, observing it in operation across the 
country. The testimony we present today reflects this scrutiny 
and provides observations as well as recommendations for 
improvement. In general we were highly impressed both by the 
amount and the quality of information that was conveyed, 
particularly in such a relatively short period of time.
    The American Legion has long advocated for the inclusion of 
VSOs in TAP. VSOs provide important services to transitioning 
servicemembers and we are pleased to note that during the TAP 
sessions we observed the attendees were referred to VSOs for 
claim services by the TAP instructors. We would, however, like 
to offer some recommendations. The first regards a need to 
increase emphasis on soft skills, that is behaviors and 
etiquette that makes an individual employable. The vast 
majority of personnel leaving the armed services have not had 
significant experience working in a civilian work setting. We 
believe that insufficient emphasis is placed on these soft 
skills during TAP. Further, a five-day course cannot hope to 
teach behaviors obtained by spending a substantial part of 
one's adult life in a civilian work place. However, we believe 
that transitioning servicemembers would benefit if there were 
more discussions of workplace culture.
    The second regards an improvement to the information on 
education that is provided in TAP. With the Post 9/11 G.I. Bill 
every transitioning servicemember has access to the opportunity 
to attend a higher education program, or in some instances 
transfer the benefit to their dependents. As such we recommend 
that the educational track incorporate more input from the 
Department of Education and that the education track of 
Transition GPS be made mandatory for all transitioning 
servicemembers.
    We believe that part of the solution to veterans 
unemployment lies in a collaboration between government 
entities and the private sector. As such the American Legion as 
responded by bringing Employment Workshops and hiring events to 
transitioning servicemembers. Our Employment and Empowerment 
Summit is a two-day event that ends with a job fair. We host 
this summit in various cities and provide transportation and 
lodging to servicemembers going through TAP. Servicemembers 
attending our events have had the chance to learn about various 
opportunities in fields ranging from the banking industry to 
the trades and are able to receive some preliminary instruction 
on the aforementioned soft skills needed to gain and maintain 
employment. Unfortunately at some locations we are met with 
resistance from contracted TAP facilitators. Contractually TAP 
facilitators are evaluated based on a limited scope of 
performance measures, thus there is a lack of incentive for 
them to work outside the confines of their own programs. 
Amending DoD contracts for TAP facilitators to include a 
section regarding required collaboration with trusted private 
sector actors would solve this problem fairly easily.
    We recognize that one of TAP's main roles is to introduce 
the employment services available to veterans and to provide a 
warm handoff to the agencies that administer those programs. 
However, we have become aware of an issue affecting veterans 
employment services that are funded by the JVSG and 
administered through DoL VETS. Last spring DoL issued a 
directive creating a hard distinction between disabled veteran 
outreach program representatives and the local veterans 
employment representatives which are funded by the JVSG grants 
and are located at DoL job centers across the country. 
Essentially this disallows DVOPs from seeing non-service 
disabled veterans even if they have time. DoL's self-imposed 
restrictions undermine the flexibility required to best serve 
veterans who are in need of employment services. These 
restrictions are contrary to the federal statute and have 
generated negative feedback from the field. The American Legion 
is adamant that a regulatory or legislative change 
reinstituting the roles of DVOP and LVERs by DoL would provide 
a significant improvement to the JVSG program. The American 
Legion is working with the office of Senator Pat Toomey of 
Pennsylvania to introduce a bill that would make this change 
explicit in the statute should DoL fail to make the regulatory 
change.
    Overall the American Legion believes that the new TAP 
program represents an important step towards providing 
transitioning servicemembers with the information that they 
need to become successful. While there exists some shortcomings 
that require attention the program overall appears to be 
successful and implementation has been commendable. The 
American Legion looks forward to continuing our work with the 
agencies and with Congress to continue to improve this valuable 
resource for our transitioning servicemembers.

    [The prepared statement of Davy Leghorn appears in the 
Appendix]

    Dr. Wenstrup. Thank you very much. Thank you, Mr. Leghorn. 
Mr. Gallucci, you are now recognized for five minutes.

               STATEMENT OF MR. RYAN M. GALLUCCI

    Mr. Gallucci. Thank you, Mr. Chairman. Chairman Wenstrup, 
Ranking Member Takano, and members of the subcommittee, thank 
you for the opportunity to present the VFW's thoughts on the 
Military Transition Assistance Program, or TAP.
    The VFW has long recognized the need to provide 
transitioning servicemembers with a quality baseline of 
information with which to make informed decisions about their 
post-military lives. Over the past few years this subcommittee 
has driven significant change in TAP. The agencies responsible 
have rebuilt the program from the ground up and worked to 
foster consistency by introducing contract facilitators, 
individual curriculum tracks, and access to post-service TAP. 
My remarks will focus on these three areas.
    First, the VFW generally agrees with the shift to contract 
facilitators, freeing up local resources to serve veterans. 
However, the shift has had some unintended consequences and the 
VFW encourages striking a proper balance on contract 
facilitation and local need. The VFW also recognizes that the 
military has made a significant investment in TAP in 
anticipation of the current military draw down. More 
transitioning servicemembers require more staff and more 
classroom space. As DoD seeks to meet this demand we must not 
forget that VSOs still play a critical role in transition. To 
assist in the process the VFW has professional staff on more 
than a dozen military installations with plans to expand.
    Our staff provides free assistance to servicemembers 
seeking to file for VA disability benefits prior to separation. 
To do so we rely on our military hosts and TAP for access and 
support. Outgoing Secretary of Defense Chuck Hagel recognized 
this in his recent memo to installation commanders, which 
outlines how they should provide for VSOs that deliver VA 
accredited, face-to-face services to transitioning 
servicemembers. Adherence to this memo is critical to the VFW 
as we see a correlation between exposure and access and the 
number of servicemembers seeking representation. We see fewer 
claims on installations where our access is limited, despite 
the increase in those leaving the military.
    Next, the VFW applauds the hard work of the contract VA 
briefing facilitators, many of whom are recently transitioned 
veterans. However, we question why the contract leaves such 
little flexibility to adapt to local needs. We encourage VA and 
the subcommittee to review the contract and offer flexibility 
to reintegrate local resources like VSOs and reasonably adapt 
the curriculum to suit the audience.
    Next, we must ensure consistent access to the new TAP 
tracks, as well as consistent delivery of timely and relevant 
training. During VFW's recent visits to our staff on military 
bases we spoke with those responsible for implementing TAP. 
They acknowledge that the training is a marked improvement and 
were grateful for the significant recent investment in the 
program, however they worried that unit commanders still 
struggle to see the value in allowing their personnel to 
participate. Sadly, this was not an isolated issue. Though TAP 
is now a commander's program the VFW worries that DoD lacks 
mechanisms to hold commanders accountable. This requires a 
significant cultural shift, one that is unlikely to happen 
during the current draw down. So in an effort to mitigate this 
concern the VFW encouraged DoD to make the curriculum 
accessible online. DoD complied, allowing servicemembers to 
complete the training through their secure JKO accounts. 
However, transitioning servicemembers still have no reasonable 
way to anticipate the specific challenges they will face after 
leaving the military. The simplest solution would be for DoD to 
finalize its information sharing agreement with the Department 
of Labor, offering workforce agencies access to the names of 
veterans returning to their communities. But the agreement is 
once again delayed. This is unacceptable and we encourage 
Congress to act on it.
    Finally, we must continue to invest in the post-service 
availability of TAP. Over the past two years DoL worked with 
its contractors in West Virginia, Georgia, and Washington to 
facilitate 23 workshops as part of the Off Base Transition 
Training, or OBTT pilot program. Some workshops were more 
successful than others, with West Virginia experiencing the 
most success thanks to support from the National Guard. OBTT 
was very cost effective, costing only $52,000 for the entire 
pilot. Through large scale community based TAP classes, OBTT 
serves veterans who otherwise would not have had access to the 
material or who could only rely on the, or could only receive 
the information by meeting one on one with an employment 
counselor. The VFW believes it is more cost effective to 
leverage the current TAP contract to facilitate large training 
sessions like OBTT before veterans meet one on one with 
counselors at American job centers. This way when veterans seek 
out services they are prepared to have a constructive meeting 
to find a job. OBTT expired this month and DoL will not have 
information on outcomes for another year. As we wait for final 
data on OBTT the VFW believes that Congress should at least 
extend the pilot, offering cost effective services to more 
veterans who need it.
    Veterans can also access all the new TAP modules via a 
public facing website offered in joint venture by DoD and 
Department of Labor. The VFW believes this is a game changer 
for veterans. However, to improve the site the VFW recommends 
allowing veterans to navigate directly to modules they need and 
offering links to the participant guides. DoL should also track 
traffic to the site to identify trends and shortcomings in the 
Transition Assistance Program. These minor improvements would 
allow veterans to use the public facing site as an easy 
reference guide.
    TAP is undergoing an amazing revolution and the VFW thanks 
everyone involved for their continued hard work on this 
project. However, we know that there are places that we can 
improve. With the current military draw down it is critical to 
ensure the future success of our war fighters and we look 
forward to working with this subcommittee on ways to make sure 
that we succeed in that mission. Chairman Wenstrup, Ranking 
Member Takano, and members of the committee, this concludes my 
testimony. I am happy to answer any questions you may have.

    [The prepared statement of Ryan Gallucci appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Mr. Gallucci. Ms. Dunmyer, you are 
now recognized for five minutes.

             STATEMENT OF VALRICA MARSHALL DUNMYER

    Ms. Dunmyer. Thank you, Chairman. Chairman Wenstrup, 
Ranking Member Takano, and other distinguished members of the 
subcommittee, thank you for calling this hearing and for 
continuing to monitor efforts to successfully transition our 
returning veterans out of the military and into civilian life. 
My name is Valrica Dunmyer and I am the Chief of Staff and 
Chief Financial Officer at Student Veterans of America. I am 
also here as a veteran with 26 years of Army service. We are 
honored that you have invited us to be a part of this session 
today.
    On behalf of SVA and its more than 400,000 student veterans 
within a network of more than 1,200 chapter affiliates I am 
pleased to submit our testimony on the review of a Transition 
Assistance Program. SVA advocates for the rights of veterans in 
higher education, rooted in the belief that investing in 
America's veterans today is a smart investment for the country 
tomorrow. SVA's top priorities include improving access to 
higher education and scaling effective services that empower 
student veterans to graduate on time with little to no student 
debt and successfully transition into civilian life.
    Mr. Chairman, as a beneficiary of the current program I 
know that improvements have been made. Nevertheless, 
transitional challenges still exist as evidenced through the 
continuing struggle of our veterans, and more specifically our 
student veterans. One of the main challenges is knowing whether 
the TAP GPS program is truly working on the front end to 
produce the desired outcome on the back end. As of December 2, 
2013 only 72 percent of TAP locations included the higher 
education track offered by the DoD. Now this may seem like a 
high number to you and something to be proud of. But consider 
for a moment, if you are that vet that's in the 28 percent 
group, and your release date is quickly approaching, imagine 
that that is you and you are thinking about getting out and you 
want to pursue a degree. You have not been provided any of the 
information and you have no idea where to start. For those 
veterans the system is still not working.
    Our Million Records Project represents the most 
comprehensive examination of student veterans' post-secondary 
academic success that has ever been done in decades. The 
Million Records Project showed that more than a million 
veterans have used educational benefits from 2002 to 2010. 
Additional data indicates that there will be over five million 
veterans by 2020. These facts, coupled with ongoing budgetary 
constraints, prove that we can no longer hope that our brick 
and mortar delivery of information is sufficient. We must be 
innovative in our approach to information delivery while still 
ensuring the quality of information provided to our veterans. 
Most veterans frown on the current delivery method, describing 
the TAP program as death by Power Point due to the lengthy and 
enormous amount of information delivered. While the basic 
information such as months of Post 9/11 G.I. Bill eligibility 
should continue to be included, we must ensure that our entire 
instructional program is informed through research, best 
practices, and feedback.
    As servicemembers contemplate pursuing a degree following 
the military the utilization of VSOs and VSAs can be looked 
upon as being a force multiplier, providing the necessary link 
between departure from the military and the veteran's 
introduction into civilian life. Veterans service organizations 
like SVA have a proven track record of success, to both its 
members, both today and its alumni, and it should have a seat 
at the table in further discussions. Through research, 
connection with our local SVA chapters, and advocacy, we know 
that the better informed and prepared student veterans are the 
greater the contributions and return on the investment for our 
nation. By integrating SVA and other VSOs into the assessing 
higher education track, we can ensure the same level of success 
for all vets transitioning into higher education.
    We thank the chairman, ranking member, and the subcommittee 
members for your time, attention, and devotion to veterans and 
higher learning. We look forward to continuing to work with 
this subcommittee, the House Committee on Veterans' Affairs, 
and the Congress to ensure the success of all generations of 
veterans. Thank you.

    [The prepared statement of Valrica Marshall Dunmyer appears 
in the Appendix]

    Dr. Wenstrup. Thank you, Ms. Dunmyer. Colonel Sutherland, 
you are now recognized for five minutes.

            STATEMENT OF COLONEL DAVID W. SUTHERLAND

    Colonel Sutherland. Mr. Chairman and members of the 
subcommittee, my name is David Sutherland. I am representing 
Easter Seals Dixon Center and serve as its chairman. Easter 
Seals is a national nonprofit that helps individuals reach 
their potential through local services. I co-founded Easter 
Seals Dixon Center to forge community partnerships and harness 
local resources to more effectively serve veterans and 
transitioning servicemembers at the community level. As one of 
the 13 surge brigade commanders in Iraq in 2007 I observed 
firsthand the greatness that exists in our formations. And I 
also recognize the potential for greatness when our 
servicemembers come home. Thank you for inviting me to testify 
about the reintegration needs of our servicemembers and the 
role of communities and public-private partnerships.
    I have dedicated the last several years on this very topic, 
both as a special assistant to the Chairman of the Joint Chiefs 
of Staff and now at Easter Seals Dixon Center. I am inspired by 
the sea of goodwill among Americans and U.S. communities that 
are ready to assist and welcome home our veterans and military 
families. I have seen that there are just some things that 
government cannot do that independent organizations working 
together locally can. Far too many servicemembers struggle 
during their transition because of missed opportunities and 
disconnected communities. The solution to successful 
transitions lies in American communities. My testimony today 
will focus on what government and communities can do together 
to improve this transition.
    Let me start by saying the government is doing a better 
job. Thanks to steps by Congress and changes to the Transition 
Assistance Program curriculum, including the optional tracks on 
education, technical training, and entrepreneurship. I did not 
benefit from these changes when I attended TAP after 29 years 
in the U.S. Army. That said, TAP continues to lack a mechanism 
to measure outcomes and facilitate warm hand offs into 
communities.
    In my testimony I share the transition experience of a 
Marine named Gary. He completed the new TAP, was self-
motivated, and had a plan. However, his plan quickly unraveled 
when he hit a string of unfortunate events that left him 
homeless and in crisis. TAP and the military supports end the 
minute you walk off the base and so Gary was on his own. Gary 
and other veterans like him quickly learn that the hard work of 
transition begins after TAP and what typically separates the 
transition success story from a story of struggle is now a 
community welcomes, connects with, and responds to 
transitioning servicemembers.
    Luckily for Gary his home of Cincinnati was prepared to 
assist him. Several months earlier I had helped organize a 
coordinated community response in Cincinnati among Easter Seals 
and other community groups through Operation Veterans Thrive. 
Chairman Wenstrup is very familiar with this effort funded by 
three local community foundations. Gary's initial call into the 
community led to several warm handoffs. First, to local 
organizations to address his immediate needs. Then to Easter 
Seals Tri-State for employment services to help him find a job. 
Gary is firmly on his path towards greatness thanks to a little 
community support during transition.
    The connectedness of Cincinnati was the result of 
comprehensive community asset mapping and community convenings. 
Not all communities are as prepared. Easter Seals Dixon Center 
works across the country to build community partnerships and 
share innovative approaches to assist our veterans. We are 
stronger and more effective by working together.
    While we have succeeded in shepherding community resources 
and fostering community collaborations in places like Ohio, New 
York, California, and Indiana, the need and work continues. 
Congress could make a difference by funding community asset 
mapping and coordination efforts through a community grant.
    While this hearing focuses on initial transition into 
civilian life, reintegration struggles for some can surface 
several months or years after leaving the military. Congress 
has supported care coordination and supportive services models 
to address the most compelling needs, such as veterans 
unemployment and homelessness. However, more must be done to 
intervene earlier before crisis hits. I urge Congress to expand 
community models focused on early intervention and support 
services. Communities and groups like Easter Seals are part of 
the solution in promoting successful transitions. Congress 
could accelerate this effort by establishing outcome 
measurements and increasing community connections within TAP, 
supporting communities to more effectively serve veterans and 
military families, and expanding access to care coordination 
and support services to address ongoing reintegration needs.
    As I alluded to throughout my testimony, we are veterans, 
we are not victims. That this is not about pity but recognizing 
potential, and that this generation of veterans are wired to 
serve. They just need a little community based support during 
transition and reintegration and they will thrive.
    Thank you for the opportunity to testify. I will be pleased 
to answer any questions.

    [The prepared statement of Colonel David Sutherland appears 
in the Appendix]

    Dr. Wenstrup. Well, thank you, Colonel Sutherland. I now 
yield myself five minutes for questions and first I want to say 
I appreciate all of your testimonies and your lifelong concern 
for our veteran and for those that have served. And certainly 
we don't want this program to be death by Power Point, which we 
have heard about, and we don't want it to be just a box that 
you check. We are all familiar with that process and coming 
away with nothing. But we also need to look for opportunities 
outside of those several days where we can reach our veterans 
and those that are still in uniform as they are transitioning 
out of the military. Our goal here is to get it right and to 
get it right as many times as we possibly can.
    You know, with that in mind as you are looking at the long 
term effects, I ask all of you what is your understanding of 
how the VA, Department of Labor, and Department of Defense are 
tracking long-term performance outcomes of TAP? And how do you 
think they could improve such reporting? What are you hearing 
from members on how TAP has or has not adequately prepared them 
for their transition? And I will start with you, Mr. Leghorn.
    Mr. Leghorn. Mr. Chairman, we had very good feedback from 
our members that have gone through the TAP program. There is 
obviously some small tweaking that needs to happen, but for the 
most part it has been, all the feedback has been positive.
    Dr. Wenstrup. What about the long term, my concern is about 
the long term reporting of how people are doing through, after 
this process. We know that they may go through the program and 
find it beneficial. What about looking at where they are two 
years from now? Five years from now? That is one of the issues 
that I want to address with all of you.
    Mr. Leghorn. We talked to the Department of Labor about 
this in the past. And I believe we were told that they had a, a 
while back they had a direct calling campaign where they were 
reaching, actually reaching out to the people that have gone 
through TAP. And they captured their information and they were 
following up with them afterwards. So I do not know if that is 
still happening, but the American Legion was in support of that 
program.
    Mr. Gallagher. Thank you for the chairman, thank you for 
the question, Mr. Chairman. A couple of items on this. Now 
first, DoD is conducting exit surveys for participants in the 
Transition Assistance Program. Overall the feedback has been 
generally positive from what the VFW has seen. Now to do our 
own due diligence we also had a survey of recently transitioned 
servicemembers asking for their feedback on the Transition 
Assistance Program. A little bit of what we found from our 
respondents is that 65 percent reported that overall they were 
very satisfied with the level of training that they received. 
Only five percent reported that they were dissatisfied. 
Although the response, the sampling was very small, we hit 
major installations like, major combat installations like Fort 
Campbell, Fort Bragg, Hood, Camp Pendleton, and so on.
    Now as far as the Department of Labor briefing, 72 percent 
found it very useful, 26 somewhat useful. And 68 percent 
reported very likely to use the resources after they separated. 
Now the problem with this is that it does not capture what 
happens in the out years. This is what we were talking about in 
our testimony about the DoD, the importance of the Department 
of Defense and Department of Labor information sharing 
agreement. Department of Labor does want to track veterans once 
they separate from the military and what their employment 
interactions are like but they do not have consistent access to 
the information from when servicemembers leave the military and 
become veterans.
    Also with the Off Base Transition Training Program, I think 
that is why we think this is an important investment. OBTT has 
the potential to reach veteran who never had an opportunity to 
go through TAP, which is the majority of the veteran 
population. I know when I left the military it still was not 
mandatory. The mandate is only hitting people who are going 
through it now. And also, that is not necessarily even the 
right time to ask those questions because you do not know the 
challenges you will face until after you leave.
    There are some issues with the current population survey 
and how the Bureau of Labor Statistics identifies veterans 
within the workforce. There are some tweaks we could make there 
to make it more beneficial. But there, we have a long way to go 
before properly evaluating the effectiveness of TAP and the 
long term employment of veterans.
    Ms. Dunmyer. Thank you, Mr. Chairman. I am not aware of a 
formal program of tracking departing servicemembers to assess 
the effectiveness of TAP. But what I can share with you is what 
we are getting back from our student veterans. For the most 
part they are, they have benefitted from the TAP training but 
there are some instances where they are not prepared to enter 
college. They did not receive the information on how to engage 
the process and then what financial assistance is out there. So 
as we have identified through this hearing, we have also 
identified that there are still areas where we still need to 
show improvements.
    Colonel Sutherland. So we did from our discussions, and I 
have visited over 600 communities in the past several years, 
worked and spoken to veterans from all generations, but with 
this particular audience that have gone through the current 
transition it is, the struggle is the warm hand-off, the 
connection with where they are going. The personal information 
disclosure and connecting them before they get home, to 
network, to assist, and knowing where to go if they have an 
emergency during that time period. That is what is missing.
    We have to measure the success or failure of our graduates. 
And if we look at our veterans as graduates and measure their 
success or failure, whether it is in full-time education, full-
time employment, or other challenges, then we can assess and 
measure how we adjust TAP for the future. What are we hitting 
on? What are we not hitting on? If we continue to just measure 
100 percent attendance, that is not going to help us achieve 
our goals. And my recommendation is that we say the goal is 100 
percent of these veterans are employed, or 100 percent are in 
education, or bring it down to a more realistic number based on 
the staff estimate of Labor, VA, and DoD. But then we can 
measure it and we can come back and not say that this group got 
a better education experience or a better transition 
experience, but handing them off warmly.
    The lessons learned in the recent Rand study for the 
100,000 jobs mission that came out discusses the significance 
of the TAP program but it also more informed our transitioning 
servicemembers of what resources are available in the community 
they are going to, and creating that advance warning to the 
local community is a benefit, and then measuring their success 
or failure as graduates of the program.
    Dr. Wenstrup. Thank you all very much. I now recognize the 
ranking member for any questions he may have.
    Mr. Takano. Thank you, Mr. Chairman. You know, I will throw 
this question out to anybody who feels they can answer it. How 
is it that we can retain or engage engaging instructors? I 
think part of the problem is that we have, we have got a large 
trainer corps out there which has a great variety in terms of 
their skill level and equality and how do we retain these folks 
that are good, and how do we evaluate them?
    Mr. Gallagher. Ranking Member Takano, I just had an 
opportunity to visit with some of the transition facilitators 
as we do our routine site visits. And just from speaking to 
some of the contractors who facilitate this, I think they are 
doing a good job of that already. I think the contractor is 
hiring quality individuals who want to deliver quality 
training. Some of them that we speak, most of them that we 
speak to are veterans themselves or veteran family members, and 
of those veterans most of them are recently transitioned. So 
whatever they are doing to recruit these personnel they, in my 
opinion they seem to be doing a good job.
    Now retaining them in the long term and evaluating their 
effectiveness may be a different story. One of the concerns 
that we do have is the rigidity of the contract, especially 
when it comes to integrating community resources like VSOs, 
like DVOPs, and LVERs, who could provide the landscape around 
that military installation, what the employment situation is. I 
think that is why we are asking the committee to take a look at 
the rigidity of the contract and whether there is any 
flexibility that could be worked in to put those resources back 
in where appropriate.
    Mr. Takano. All right, thank you. Ms. Dunmyer, I want to 
turn to a question, since you represent, your organization 
represents students, how much of a factor should the type of 
institution and the type of accreditation the institution has 
be in a veteran's decision of where to use their G.I. benefits? 
Do you think enough information about the type of accreditation 
is provided in TAP? I mean, for instance many veterans may not 
know that courses at a particular type of institution may not 
be transferrable. The difference between regional and national 
accreditation, for example. Is this information, how important 
is it? And is it in your opinion delivered with enough 
effectiveness?
    Ms. Dunmyer. Thank you, Ranking Member Takano. What is 
happening is that level of detail of information, you are 
normally not going to have time to be able to hear that 
information with military members as they are going through the 
TAP training. And that is why I think it is so important to 
have VSOs start to play an earlier role in the process. Because 
specifically SVA, we have got chapters on the ground throughout 
all of the 50 states. And what you would have happening there, 
and let me go back to your initial comment. Yes, there is a 
difference with the accreditation. Because unless your, you 
explain that in detail to the student vet, they don't 
understand that some of the credits may not be transferrable. 
And so they are going into school and by the time they figure 
out that the 10 or 12 credits that they have taken previously 
are not going to be able to be transferred, now they have got 
to spend additional money or potentially go into debt. And so 
it is a downhill spiraling process that is going on. So what 
you want to be able to do is to inform them, make them, provide 
as much information to them before they actually start the 
process. And so having a part of that track where it is 
mandatory that they go down it if they are, they want to pursue 
college, it is also important to have the VSO there to be able 
to explain that process to them. And in doing so, then they 
will be able to make a better informed decision about which 
schools that they want to go to.
    Mr. Takano. I wonder whether or not the federal government 
has been able to track, or VSOs track the decisions that 
students have made vis-a-vis what educational institution they 
are attending, and whether we are able to measure a level of 
regret that they would have made better decisions had they 
known. I mean, whether we have been able to assess 
retroactively among people who have used their veterans 
benefits?
    Ms. Dunmyer. We have been able to. The Million Records 
Project that was just done, phase one, we were able to track, 
and this was the first time that we have ever had research done 
on that population to find out who has gone to school, what 
were the degrees that they were pursuing, what were the types 
of institutions that they were actually enrolled in. So that 
was phase one of the Million Records Project. And what we found 
out was that you had 80 percent of the student veterans that 
were going or that had been enrolled in college from 2002 
through 2010, 80 percent of them had attended public schools, 
ten percent of them were in private schools, and then another 
ten percent were in your proprietary schools. So there is 
information out there.
    Now that was phase one. Phase two, we are going back to 
look at the institutions themselves and look at the policies 
and practices of institutions. And what we want to be able to 
see is how much of a role the institutions play in helping 
veterans actually achieve success and attaining a degree from 
that institution.
    Mr. Takano. I am sorry, my time is up. Thank you. I would 
be very much interested in that information. Thank you.
    Ms. Dunmyer. Yes, sir.
    Dr. Wenstrup. I now recognize the remaining members in 
order of arrival, alternating sides. First is Ms. Radewagen.
    Mrs. Radewagen. Thank you, Mr. Chairman, ranking member, 
and members of the subcommittee, talofa. My home district of 
American Samoa is an isolated group of islands about five and a 
half hours by plane south of Hawaii. It's the only U.S. soil 
that's south of the equator. And for a small group of islands 
we have a tremendous number of our sons and daughters serving 
and that have served in the armed forces. In fact, ten percent 
of our entire population is made up of military veterans. I 
want to make sure we cover as much as possible for our 
veterans. Too often in the past, not just in this committee but 
throughout the House, legislation has passed Congress that has 
forgotten American Samoa and the territories and I am pleased 
to see that in this bill our veterans are eligible for this 
assistance just as those in the States are.
    I have a question for Mr. Gallucci. I appreciate your 
suggestion in your written testimony that you believe a 
disabled veterans outreach program and the local veterans 
employment representatives should be more involved in TAP. 
Short of repealing the law mandating that contractors teach 
TAP, how would you envision DVOPs and LVERs being more 
involved?
    Mr. Gallucci. Well, thank you for the question. I do want 
to clarify one point. We support further integration of DVOPs 
and LVERs in the transition process overall. However, given the 
scope of the training that Department of Labor needs to deliver 
or that Department of Defense needs to deliver to transitioning 
servicemembers, that the way to go is through contract 
facilitation. The reason behind this is because through the TAP 
mandate in talking to the transition centers at major military 
installations, they are constantly running classes, five days a 
week, 48 to 50 weeks a year. So the problem is if you had DVOPs 
and LVERs still facilitating the training they would have 
absolutely no time to work in their communities to identify job 
opportunities or work face to face with veterans who require 
their services.
    That being said, when we spoke to some of those responsible 
for transition management, their concern was that the contract 
facilitators did not necessarily integrate local resources into 
the Transition Assistance Program at all. So there was not 
really an opportunity for an LVER or a DVOP to come in and 
brief military personnel or make themselves available. These 
may have been isolated to a handful of military installations 
but it is something that we would want to look into to make 
sure that we are not losing that community connection that 
Colonel Sutherland stressed is so important.
    Dr. Wenstrup. Next Miss Rice, you have five minutes.
    Ms Rice. Thank you, Mr. Chairman. This question is for Ms. 
Dunmyer. What kind of training innovations would you suggest to 
improve the delivery of benefits information to avoid what you 
refer to and others have referred to as the death by Power 
Point situation?
    Ms. Dunmyer. My first suggestion would be that we advance 
with advancements in technology. There is quite a few 
universities out there that are using distance learning and e-
learning types of venues. And I would recommend that that is 
one option, even though I know it has been previously 
discussed. I think that is more of a viable option than the 
current one that we have where you are sitting in a classroom. 
And I was a part of that. And while my first week of it, at 
least the first two days, I thought were very beneficial, I was 
very attentive. But after about two or three days and you are 
sitting in a classroom for eight hours and the information is 
coming at your nonstop, it tends to be repetitious and it 
starts to be boring even though it is beneficial information. 
So I would say that we start to look at other types of venues 
to present the information so that you alleviate some of the 
boredom and monotony that comes with that classroom 
environment.
    Ms Rice. One other question. For Mr. Gallucci, I am going 
to ask you this question. You spoke about the DoD and DoL 
formalizing their information sharing agreement. Does not, I 
would assume that DoL already has the names of veterans who are 
transitioning to civilian life as part of their own Employment 
Workshop? Is that true? I mean, it seems like the information 
is already----
    Mr. Gallucci. Our understanding is they do not readily have 
that information at the moment. And that this is, this is being 
able to gather the information from these transition points and 
then distribute it to workforce development agencies that have, 
DVOPs and LVERs that have employment counselors who are able to 
deliver services directly to the veterans. This is something 
that Department of Labor first brought to our attention in 
2012, that they were working to codify a formal agreement with 
Department of Defense. There have been several implementation 
points that have been missed. The most recent that I am aware 
of is September of 2014, they were supposed to have an 
agreement implemented by, well like end of September, October 
1, 2014. And that time lapsed and so that is really where we 
are at the moment.
    Ms Rice. What are, so what would you think is the reason 
for the lack of desire to use contract facilitators that you 
were referring to before, given the limited ability of DVOP and 
LVERs?
    Mr. Gallucci. As far as a reluctance to use contract----
    Ms Rice. Well is there, what is the issue?
    Mr. Gallucci. I do not think there is. I think there is a 
concern, though, that local resources may not have as much of a 
presence in the Transition Assistance Program that they had 
before. So before they went to, before Department of Labor went 
to contract facilitators it was usually DVOPs or LVERs who 
conducted the training, who conducted the Department of Labor 
briefing for the TAP program. When they went to contract 
facilitation a lot of the DVOPs and LVERs were not able to 
participate in the TAP program at the level they used to and it 
was contract facilitation on all military installations so they 
are delivering the three-day Employment Workshop and DVOPs and 
LVERs would be integrated in other ways into the program. So 
that is the concern that we have heard from some DVOPs and 
LVERs.
    Our stance, from the VFW's perspective, contract 
facilitation has to be the way to go given the scalability of 
the task of training everyone who is leaving the military. 
There would be, there is no reasonable way to expect JVSG grant 
recipients to continue to deliver that training given the scope 
of investment that we have made in the program.
    Ms Rice. Thank you. Thank you, Mr. Chairman.
    Dr. Wenstrup. Mr. Costello, you are recognized for five 
minutes.
    Mr. Costello. Thank you, Mr. Chairman. And I want to thank 
each of you for your testimony. I believe I can generalize that 
each of you has said that TAP is an improvement but that TAP 
itself can be improved. And I think that it is refreshing for 
all of us to hear that TAP is an improvement.
    My question is directly oriented to Colonel Sutherland, 
although I invite anyone else to offer their comments. Colonel, 
I am just going to read a couple pieces of your testimony and 
then ask a question to provide the context. This is you 
speaking. I have found what typically separates a transition 
success story from a transition story of struggle and crisis 
lies in how a community welcomes, connects with, and responds 
to servicemembers leaving the military. We do not need more 
organizations but rather we need to harness existing community 
based programs and get organizations from across society to be 
inclusive of those touched by military service, to use our 
leadership locally to bring these organizations together to 
achieve collective impact. On page four you note, more needs to 
be done to localize the TAP training for transitioning 
servicemembers. And then to page seven you state that, you 
speak about the warm hand off between TAP and community as 
being lacking and there needs to be a more effective way of 
connecting the separating servicemember to the community he or 
she is planning to either prior to or during their transition. 
The DoD, for example, is not designed to provide these follow 
along community supports but some type of hand off within the 
community to the state director of veterans services, American 
Job Center staff, or local veterans service organization could 
help promote smoother transitions.
    The question is, and it need not necessarily be an economic 
development agency although being a county commissioner, I 
mean, I am aware that every region has an economic development 
agency that handles workforce development programs. My question 
is because it is necessarily something very local, and because 
each community is a little bit different, do you envision sort 
of a unified delivery model for dealing with that warm hand off 
and for dealing with that ongoing issue of reintegration? Or is 
it something that really falls outside of government and is 
much more to use the term community based? I am curious if you 
could reflect on that a little bit further. Because I find it 
very interesting. And it really hits to the nexus of what the 
focus is, which is how do you transform TAP into its next 
iteration?
    Colonel Sutherland. It does, and I understand exactly the 
challenge. The institutions need to err on the side of the 
veterans as opposed to err on the side of the institution, and 
to do that we have to understand if you have met a 
servicemember you have met a servicemember. If you have met a 
veteran, you have met a veteran. And if you are going to a 
community, you are going to a community. Each community has 
different resources, different capacity. And then what we have 
seen though in those communities, those local communities, is 
organizations that have stood up over the past several years 
because of this desire to want to connect and enable this 
generation of veterans.
    We have seen whole of society approaches take place, 
whether it is in Wilkes-Barre or whether it is in Cincinnati or 
Boise, Idaho with the Wyakin Warrior Program. But what we have 
seen is that as the veterans transition, a more personalized 
approach to connect them to what are their desires as opposed 
to what do we think they should do. And what we have seen is 
over the past year some great advancement as far as 
apprenticeships and internships through Skills Bridge, with DoD 
working with the VA, as well as with teamster organizations. 
Trade and local organizations are phenomenal at not only 
recognizing the skill sets of the veterans but then tying them 
to what do the veterans want to do? What does the servicemember 
want to do? And now with the opportunities with the changes in 
DoD regulations that took place last January, or instructions 
that have taken place last January, we are now doing 
internships on installations. We just kicked off in Fort Sill 
with the teamsters doing truck driver training with a large 
group that want to drive trucks, commercial rigs. And so 
understanding that it is a whole of society approach but 
tailoring it after the institutionalized training that they go 
through in the TAP program as they get closer.
    Because honestly when you are at 180 days out, I am 
thinking 180, 179, 178, I am counting down. As you get closer 
to the end and having a follow up, a care coordination effort, 
but connecting them to some sort of network in their local 
community. And that is what the state directors of veterans 
services have been talking about as well. Because we have been 
leaving them out of the conversations in some cases. Including 
them and then understanding that another part of this is 
building public awareness. The American people know what we 
are. They may not know us. They know we served in Iraq and 
Afghanistan, they know we served on a ship or an aircraft, we 
need to bring it down to a personal level once we connect with 
them in the local community. And that is why that network is 
so, so important. And having, harnessing community based 
programs. That is how J.P. Morgan has hired over 100,000, UBS 
has hired several thousand veterans. And through the work of 
local organizations coming together, what we have seen in 
Cincinnati that has reduced the unemployment. It is the public 
and private partnership that really takes place after that 
institutional training. Does that answer your question, sir?
    Mr. Costello. It does. I appreciate that.
    Colonel Sutherland. Thank you.
    Dr. Wenstrup. Ms. Titus, you are recognized for five 
minutes.
    Ms. Titus. Thank you, Mr. Chairman. First I would like to 
say to Mr. Leghorn, I appreciated your observation and comment 
that the education track should be a mandatory part of the 
program. Because even if our servicemen and women are not 
thinking about going directly on to college, they need to have 
that information so they know what their options are down the 
road. Because many times they may get out for a year or two and 
then want to come back. And that brings me to my question to 
Ms. Dunmyer, I recently met with the student veterans at UNLV. 
And they like to go out to Nellis or to Creech and recruit some 
folks to come to UNLV. But they tell me that they have a hard 
time getting onto the bases, getting in touch with these young 
people. And they wonder how, what they can do to make it 
better. Because they believe if these folks heard from fellow 
students maybe as part of the TAP program it would be less 
boring than sitting in the classroom, as you referenced, and 
have some relevant information. I just wonder is this a problem 
across campuses? Is it just UNLV? Is there something we can do 
to maybe facilitate that relationship earlier in the process?
    Ms. Dunmyer. Well ma'am, I am not aware that that is a 
problem. I know access requirements or access standards are 
different for different installations. So it is something that 
we can go back and look at. But it should not be, their access 
onto the installation should not be a problem. I think the new 
policy for most installations is as long as you have got an ID 
normally you can gain access into the installation.
    Ms. Titus. Well I do not think they had a problem getting 
onto the base. I am talking about access to the TAP program and 
being a part of maybe that transition in a formal way before 
people get out of the service, and then kind of disappear 
before they come back to UNLV.
    Ms. Dunmyer. Well, we do not. There is not a formal----
    Ms. Titus. That is my point.
    Ms. Dunmyer. Yes, ma'am.
    Ms. Titus. Is there something we could do too, or do you 
not think that would be a good idea?
    Ms. Dunmyer. That is what we are hoping to accomplish 
today. That is what we are hoping that will happen, will come 
out of this. That we are able to be, that SVA, the VSOs are 
able to be on the front end of the process instead of the back 
end. That we can be there when the decisions are made, we are a 
part of the discussions that are going on, and we can add to 
it. That is what we are trying to do here today.
    Ms. Titus. I know that. I guess I was just looking for 
something a little more specific that we could be doing. But I, 
I appreciate the general sentiment and I share it. So maybe we 
will just go beyond students. We also have in Las Vegas gaming 
companies, like MGM and Harrah's, have very active job fairs 
for veterans. But that is, again, after the fact. They are not 
at the front end, they are not on the facilities, they are not 
talking to the soldiers so to speak before they become 
veterans. Tell me how we can make that better, anybody who 
would address. Give me something specific.
    Mr. Gallucci. Madam Titus, thank you for the question. I 
think we can--there is a little bit of insight that the VFW has 
on this issue. So, first, there were a couple of memoranda that 
the Department of Defense put out very recently, the outgoing 
Secretary of Defense Hagel put out, about base access for 
nonprofit organizations, organizations that serve veterans. One 
was for organizations like The American Legion and the VFW who 
provide VA accredited disability claim service. The other is 
for organizations to conduct events on the installation. What 
that was is to clarify how you can make that happen. This may 
be something that UNLV can take a look at if they are having 
problems integrating into that system.
    We heard these issues a lot from who has access and who 
doesn't have access to the TAP program, but I do want to say 
that there is a lot of innovation going on out there from what 
I have seen from the transition managers. The Department of 
Defense deserves a lot of credit for the men and women that 
they hire to manage their Transition Assistance Programs. They 
do integrate a lot of community resources beyond the scope of 
what we have mandated through the mandatory portion of TAP.
    For instance, out at Fort Lewis they have a lot of local 
employers that they integrate into the transition process. Fort 
Bragg has hiring events that are beyond hiring affairs; it is 
prescreened servicemembers who have resumes ready to go who 
have met with employers and then they just do interviews and 
they find jobs on the spot. There has been a lot of innovation, 
but I think one of the problems is consistency across the board 
or sharing of these good ideas; they are not identifying 
resources in those communities.
    Beyond that, as far as preparing servicemembers to make 
educational choices, there is something that I hit on in my 
testimony about the career technical track and the higher 
education track, and this actually speaks to what Ranking 
Member Takano was concerned about. In the career technical 
track there is an in-depth discussion about the difference in 
accreditation, what the model of a school is: for profit, 
nonprofit, career, education, and so on. There is not much of 
that in the higher education track and in many ways, they are 
complimentary, but a servicemember who doesn't have reasonable 
access to all the tracks or knows where to look for this 
information may not find it.
    And I think that speaks to what Chairman Wenstrup wants to 
see with mandating the education track and mandating other 
components of TAP.
    Ms. Titus. Maybe we need an inventory of what is happening 
in different places so we can come up with best practices and 
have some consistency across the board.
    Thank you, Mr. Chairman.
    Dr. Wenstrup. Thank you.
    Mr. Gallucci, can you expand on suggestions for expanding 
the off-base TAP pilot program and do you believe that we are 
doing as best we can or what are your thoughts of that?
    Mr. Gallucci. That is an interesting question. OBTT was 
something the VFW and our partners in the veterans community 
really pushed for back in 2012 and we were happy to see it 
pass. But when it was implemented it probably could have been 
done with better community coordination. Now, recognizing the 
Department of Labor had very scant resources with which to 
implement the program, but I think the philosophy the VFW has 
behind supporting this is that when a veteran goes to an 
American Job Center to meet one-on-one with either an 
employment counselor or a DVOP, that is not the time to answer 
your general questions; it is a better use of that advisor's 
time if you are ready to seek out a job.
    So if you have large-scale briefings like we do with the 
Transition Assistance Program on bases, you get a good baseline 
of information and then when you are ready for that one-on-one 
meeting, you go to that one-on-one meeting prepared to do work. 
We do the same thing with our disability claims assistance on 
military installations. So we rely on the contracted staff that 
VA provides to deliver the framework that you would need to 
know about the disability claims process. Where we fall into it 
is you schedule an appointment with one of our disability 
claims representatives and they go through your medical 
records; they help you fill out the paperwork; they take your 
power of attorney; and you file the claim from there.
    So that is the kind of interaction that we think could be 
fostered through OBTT is delivering resources at the right time 
in the community to the veterans and then when they seek out 
services, one-on-one services in an American Job Center, they 
are ready to find a job.
    Dr. Wenstrup. Thank you.
    Mr. Takano, you are recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    Ms. Titus, I mean I share your concern about trying to 
bring some of these job resources up to the front. Congressman 
Cook and I had cosponsored legislation for a pilot, Work for 
Warriors, which was not for veterans, but was for our 
guardsmen, but which directly placed people in the job. So we 
had employees that have jobs, we should be able to not just 
teach people how to get the jobs with the resums, but maybe 
find some direct placement.
    But the question I have--and I in no way want to denigrate 
technical or other tracks--but, Ms. Dunmyer, do you have any 
idea how many of our servicemembers who are transitioning have 
issues with remediation? Because as I understand it, 
remediation education--remedial education is not currently 
covered as a funded part of their benefits, and I have a 
suspicion that it cannot be too far off of what the community 
colleges in California face. I mean up to 80 percent of our 
community college students who come to us are not really 
college-ready, and I know many of our servicemembers who are 
not attending the non-mandatory education track may not fully 
partake of their education benefits because they may be 
insecure about their readiness for college. But I want to get a 
handle on, you know, just the student success or non-student 
success that is tied to this college readiness issue. How many 
more of our veterans would maybe take on higher education if 
remediation were maybe funded by their veterans benefits?
    And if you don't have the answer, maybe some others of you 
might step forward.
    Ms. Dunmyer. I don't have an exact number, but it is about 
50, 53 percent, and, of course, it is not funded and we have 
identified that, especially with some of the stem majors, that 
math is one of the biggest challenges for our student veterans 
going back because they have been out of the classroom for 
years and so a lot of that training that they received going--
you know, coming through high school, they have lost that 
skill.
    Mr. Takano. So you are saying that up to 50 percent of our 
veterans who actually have--are interested in seeking higher 
education--we are not even talking about those veterans who may 
have been maybe----
    Ms. Dunmyer. Graduating.
    Mr. Takano [continuing]. That our veterans who are going 
the higher education, using their benefits, up to 50 percent of 
them are sort of not college-ready at the outset, is that what 
you are saying? I mean it would seem to be a number that would 
be reasonable, given the generates that I have seen at 
community colleges.
    Colonel Sutherland. Sir, if I can help?
    We have seen the graduation rate is what Student Veterans 
of America was talking about. How many are college-ready is 
difficult to assess because our veterans may not complete for 
different reasons. They may not complete graduation or get to 
graduation because 50 percent of them are married. They may not 
get--and they have to take care of their families, so----
    Mr. Takano. So we are not able to tease out, just aggregate 
out how many of those students may have started college not 
completely ready and may have even gotten discouraged because 
they couldn't complete their first year math or English class?
    Ms. Dunmyer. No, we are not able to give you an exact 
percentage of that, no, sir. But we can give you--it is, for 
the most part, I would say you still have a high percentage of 
graduates that are able to achieve their degree. Our 
percentages are similar to what your traditional student would 
complete their degree--time frame that they would complete 
their degree in, as well.
    Mr. Takano. And I recognize there are other challenges 
beyond maybe the college-readiness which may impact our 
graduation rates at the colleges, but, specifically, because we 
don't fund remediation, remedial education, whether it is a 
semester, a year that we need to boost up that student's 
skills, this is an area that I am concerned with and trying to 
get a handle on the quantification of how many students may be 
involved.
    Ms. Dunmyer. Well, I can't give you an exact percentage; 
what I can tell you is that that is an area that we have 
identified as a problem. And to go back to math--and what we 
started is we did a pilot program a couple of months ago and it 
was to focus on math because our student veterans identified 
that they were having problems with math and that they are 
having--that the universities are requiring that they take a 
preparatory course in order to be able to start their core math 
courses for a particular degree.
    So we started a pilot program with math. When we started 
out, we had--our hopes were that we would have at least 30 
people that would enroll. To our surprise, it ended up being a 
little over a hundred--300 people that actually ended up 
enrolling in the course, and so from all measures, that was 
extremely successful.
    Now, because of that, what we started to do is to look at 
other areas that veterans are having problems with, as well, 
and we plan to do other pilots like that to address other areas 
that veterans are challenged in before they actually start 
their degree for studied.
    Mr. Takano. Thank you so much, Mr. Chairman. I appreciate 
the extra questioning time.
    Dr. Wenstrup. Sure. With votes coming up, if there is a 
second round of questions, if you could make them brief, I 
would appreciate it.
    Ms. Radewagen, you are recognized if you have another 
question.
    Ms. Radewagen. Thank you, Mr. Chairman.
    I'd like to express my proceedings to the entire panel.
    Colonel Sutherland, Dixon Center, I would like to thank you 
for sharing in your written statement the heartwarming story of 
the U.S. Marine Corps veteran named Gary which illustrates the 
efforts and positive effects that local nonprofits can provide 
to servicemembers. How can Congress and the Administration 
better assist nonprofits connect to servicemembers in need?
    Colonel Sutherland. Yes, ma'am.
    It is a great question; I appreciate you asking. And I am 
happy to give you a more detailed answer, as well. What has 
taken place recently with the change in instructions from 
Secretary Hagel for access for VSOs needs to go further. It 
needs to broaden the definition of those that can have access.
    With the number of nonprofits that exist, every single one 
of them does a good job, but making sure that locally--I fought 
for my family, my neighbor and my community, and I come home to 
my family, my neighbor and my community, and so encouraging 
their participation through--and through expanding the efforts 
of SSVF, expanding the efforts of the Supportive Services for 
Veteran Families, as well as HVRP, and other efforts to locally 
connect those services and expanding the definition of in your 
community of asking other nonprofits just be inclusive.
    Easter Seals is an organization that has been inclusive of 
veterans since World War II and provides direct services to 
165,000. We don't market. We don't spend a lot of money 
marketing. So it is build public awareness, encourage community 
involvement and promote community-based services, and I am 
happy to give you a much more expansive answer, as well.
    And we appreciate our American Samoans that have fought 
with us, as well. I had a large number in my brigade combat 
team.
    Ms. Radewagen. Thank you, Mr. Chairman.
    Dr. Wenstrup. Well, if there are no other questions, I want 
to thank the first panel for being here today. You are now 
excused, but thank you for your dedication to our country and 
to our servicemembers.
    I now invite our second panel to the witness table. Joining 
us is Mr. Curt Coy, Deputy Under Secretary for Economic 
Opportunity at the Department of Veterans Affairs; Ms. Teresa 
Gerton, Deputy Assistant Secretary at the Veterans' Employment 
and Training Service at the Department of Labor; and Dr. Susan 
Kelly, Director of the Transition to Veterans Program Office at 
the Department of Defense.
    I thank you for being with us today and for your service to 
our nation's veterans.
    Mr. Coy, let's begin with you; you are now recognized for 
five minutes, sir.

                   STATEMENT OF CURTIS L. COY

    Mr. Coy. Well, thank you, Chairman Wenstrup, Ranking Member 
Takano, and other members of the subcommittee.
    I appreciate the opportunity to appear before you today to 
discuss the current status of VA's Transition Assistance 
Program. Accompanying me today is Ms. Rosye Cloud, our senior 
advisor for veteran employment and the acting director of the 
VBA/DoD Program Office, the organization in my office that 
managing the day-to-day operations of TAP.
    We all believe that it is critical for today's 
servicemembers are prepared to transition to civilian life. We 
have been working collaboratively with all of our partners to 
deliver transition tools to help them and their families. It's 
been a whirlwind time frame, and for the most part, a 
successful journey.
    In November 2011, Congress passed and the President signed 
the VOW to Hire Heroes Act which made participation in TAP 
mandatory for all servicemembers. The following month a joint 
Veterans Employment Initiative Task Force delivered its 
principal recommendations, all of which have been incorporated 
into TAP.
    The new VA curriculum now consists of two briefings broken 
into four and two-hour sessions. Additionally, last year, VA 
fully deployed the career technical training track, a course 
designed for servicemembers wishing to transition into 
technical fields that may not require--that may require 
additional credentials, but certainly not a four-year degree. A 
contract vehicle was put into place to provide the resources 
and expertise to deliver TAP worldwide.
    Our contractors share VA's commitment to veteran 
employment. Ninety-five percent of our benefits advisors are 
veterans. Four percent are military spouses. We currently have 
over 300 VA benefits advisors permanently stationed at 107 
military installations who also provide itinerant support to an 
additional 189 military installations worldwide. We are 
reaching out to those communities outside the gates of those 
installations as well changing the way servicemembers view us.
    Between our 300 benefits advisors and our 400 IDES staff, 
we are now permanently stationed in hundreds of locations. We 
consider reaching out to servicemembers while they are still in 
uniform and where they work is critical. TAP GPS is the key 
front door to the VA.
    To meet the needs of the National Guard and Reserve 
component members, VA deployed benefits advisors at all formal 
demobilization locations, as well as we remain flexible for 
Yellow Ribbon and community-based events. In just over the last 
15 months, through the middle of this month, VA has conducted 
over 10,000 benefits briefings to over 280,000 servicemembers.
    VA and our partner agencies have also developed an online--
developed a virtual curriculum hosted on the Joint Knowledge 
Online Web site, providing access from remote sites. We have 
also posted the complete curriculum on our eBenefits portal.
    VA has developed and implemented a comprehensive approach 
to quality assurance. Benefits advisors complete a rigorous 
training program before being placed in the field and we follow 
up that training with intensive site visits.
    VA has worked hard to develop a number of tools to help and 
assist transitioning servicemembers do everything possible to 
help them become informed consumers of their benefits ranging 
from career scope, GI Bill comparison tool, feedback tools, 
choosing the right school, and most recently, the Veterans 
Employment Center or VEC.
    The VEC is the federal government's single authoritative 
Internet source for connecting transitioning servicemembers, 
veterans and their families to meaningful career opportunities. 
It is the first government-wide product that brings together a 
cadre of public and private employers with real job 
opportunities. Currently, 1.7 million posted on the VEC, thanks 
in large part to our Department of Labor partners. It also 
provides tools to translate military skills into language that 
civilian employers can understand. Job seekers can also build a 
profile to share with employers. Since its launch nine months 
ago, we have seen the VEC have over nine million visitors.
    The VA has incorporated all of these tools into our 
briefings and all benefits advisors have been fully trained. 
Finally, it is important to note and acknowledge our veteran 
service organizations who are often included in our TAP 
sessions. VA collaboratively works with our partner agencies to 
continually improve the quality and breadth of our TAP program. 
We have come a long way, but also know there is more to do.
    Mr. Chairman, we are rowing hard and we will continue to do 
so. This concludes my statement. I would be pleased to answer 
any questions you or other members of the subcommittee may 
have.

    [The prepared statement of Curtis L. Coy appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Mr. Coy.
    Ms. Gerton, you are now recognized for five minutes.

                 STATEMENT OF TERESA W. GERTON

    Ms. Gerton. Good afternoon, Chairman Wenstrup, Ranking 
Member Takano and distinguished members of the Subcommittee.
    My name is Teresa Gerton and I am the Deputy Assistant 
Secretary for Policy at the Veterans' Employment and Training 
Service in the Department of Labor.
    Thank you for the opportunity to participate in today's 
hearing to discuss the implementation of the revised Transition 
Assistance Program, Transition Goals, Plans, Success, also 
known as GPS. Since the inception of TAP over 20 years ago, the 
Department of Labor has provided training and services through 
the Employment Workshop to over 2.6 million separating or 
retiring servicemembers and their spouses. Last year alone, DoL 
conducted more than 6,600 Employment Workshops for over 207,000 
participants at 206 military installations worldwide.
    The VOW Act of 2011 required that DoL use contract 
facilitators to deliver its Employment Workshops, to ensure a 
standardized, high-quality professional cadre of facilitators. 
DoL awarded a contract to GBX Consultants, Incorporated, a 
Service Disabled-Veteran-Owned Small Business in August of 2012 
for the facilitation of all DoL Employment Workshops.
    In fiscal year 2013 we unveiled an entirely new Employment 
Workshop that provides a highly effective training experience 
and prepares servicemembers for a successful transition to the 
civilian workplace at all military installations worldwide. 
This three-day program uses modern adult learning techniques to 
actively engage transitioning servicemembers in critical 
transition skills.
    Along with the synchronous virtual workshop, DoL worked 
with DoD Joint Knowledge Online to convert the Employment 
Workshop instructor-led classroom curriculum into an 
asynchronous online distance learning format. This is a self-
paced online version of the Employment Workshop that 
servicemembers can use to reinforce and refresh what they have 
learned in the classroom.
    On day one, participants develop their Change Management 
Plan And identify overall strategies for transitioning into the 
civilian workforce. On day two, participants learn how to 
analyze the job market and use social media in job searches and 
networking. On day three, instructors impart critical 
information about special veterans' hiring authorities and how 
the federal job application process differs from the private 
sector.
    Throughout the Employment Workshop, participants work 
extensively on their master job application, targeted resums, 
and interviewing skills, and finish with a mock interview 
exercise. Instructors also discuss relevant employment 
services, including benefits available to dislocated workers 
that are available to assist transitioning servicemembers, 
veterans, and their families before, during, and after their 
separation from the military.
    All veterans, including recently separated servicemembers 
receive priority service in DoL-funded employment and training 
programs. Many of these programs and services are available 
through the nationwide network of nearly 2,500 American Job 
Centers. During the DoL-Employment Workshop, servicemembers 
learn that they are entitled to intensive services for up to 
six months at an American Job Center.
    DoL is pleased to report that the new Employment Workshop 
curriculum has been well received. Of the 11,000 participants 
who responded to the most recent survey, 91 percent reported 
that they would use what they learned in their own transition 
planning and 89 percent reported that the DoL Employment 
Workshop enhanced their confidence in transition planning. DoL 
will continue to review feedback and evaluate the program to 
ensure that the curriculum remains relevant, that meaningful 
learning is taking place, and that servicemembers feel prepared 
to transition from military service and pursue other career 
goals.
    Joining my colleagues from the other agencies, I want to 
remark on the strong partnership we have across the federal 
government in executing this program. We meet regularly to 
administer and update the program and we are proud of our 
collaboration on numerous initiatives including the Veterans 
Employment Center, the DoD SkillBridge Program, and our joint 
participation with the Chamber of Commerces' Hiring Our Heroes 
job summits at installations around the country. The Department 
looks forward to working with the Subcommittee to ensure that 
our separating servicemembers have the resources and training 
they need to successfully transition to the civilian workforce.
    Mr. Chairman and Ranking Member Takano, and distinguished 
members of the committee, that concludes my oral statement. 
Thank you for the opportunity.

    [The prepared statement of Teresa W. Gerton appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Ms. Gerton.
    Dr. Kelly, you are now recognized for five minutes.

                  STATEMENT OF DR. SUSAN KELLY

    Ms. Kelly. Good afternoon, Chairman Wenstrup and Ranking 
Member Takano and distinguished members of the subcommittee. I 
appreciate the opportunity to appear before you today joined by 
my colleagues from the Department of Veterans Affairs and the 
Department of Labor to discuss the status of implementing the 
redesigned TAP.
    Redesigning TAP in collaboration are our interagency 
partners brings together a unique set of capabilities 
benefitting approximately one million servicemembers separating 
from active duty over the next four years. The foundation of 
the redesigned TAP is a set of career-readiness standards that 
are verified for all transitioning servicemembers during a 
Capstone event no later than 90 days prior to separation. If 
career readiness standards are not met, the servicemembers are 
provided further training or a warm hand-over to interagency 
partners who ensure servicemembers receive post-separation 
assistance.
    Part of the redesign includes the robust transition GPS 
curriculum, goals, plan, success. It builds the skills that 
transitioning servicemembers will need to meet career-readiness 
standards and it is now fully implemented at 206 military sites 
in the United States and overseas. In addition to VOW Act 
mandated requirements, transition GPS includes modules for 
financial planning and a military occupational code crosswalk 
to civilian workforce skills. It also includes three supplement 
training tracks, accessing higher education, career technical 
training and entrepreneurship. To ensure that all 
servicemembers have access to the transition GPS regardless of 
their duty, station or location, we have made it available 
virtually on DoD's Joint Knowledge Online platform.
    Another area of substantial progress is within our 
evaluation and assessment of TAP. DoD, in collaboration with 
our partners developed a TAP-evaluation strategy to address 
three overarching goals, accountability, customer satisfaction, 
and program effectiveness with long-term measures being 
developed by VA, DoL, and the Small Business Administration. 
Outcome measures are a priority for the TAP evaluations 
strategy, beginning with VOW Act and career-readiness standards 
compliance.
    Based on the Defense Manpower Data Center, verified data 
for fiscal year to date 2015 across the services, that 
compliance for their active-duty servicemembers ranged from 91 
to 97 percent. These results account for three-quarters of the 
members who are separated from active duty. We realize, 
however, that we must work hard to close the remaining 
reporting gap.
    In fiscal year 2014, we also focused an commune indicating 
our redesigned TAP to servicemembers. Throughout the month of 
September, 2014, we conducted a comprehensive communications 
campaign. For your reference, we have provided materials to 
each one of the members of the subcommittee. This year we 
shifted our focus to implementation of the Military Life Cycle 
TAP Transition Model. This marks a major cultural shift for the 
Department. In December, 2014, the military services reported 
to the White House that Military Life Cycle Transition 
preparation was fully implemented at their installations, which 
the new TAP interagency governing structure will continue to 
monitor and improve.
    Your continued support is greatly appreciated and I look 
forward to your questions.

    [The prepared statement of Susan Kelly appears in the 
Appendix]

    Dr. Wenstrup. Thank you. I thank you all for your remarks 
and I now yield myself five minutes for questioning.
    One of the things we discussed with the first panel is 
looking at long-term outcomes, you know, long-term outcomes 
beyond just instructor surveys that immediately follow going to 
TAP. We all know that in human nature we can sometimes lead a 
horse to water, but we can't make them drink, and there are 
times where we have to be careful that we are not setting 
someone up for failure in engaging in something where they are 
not going to succeed.
    But my question of you is what can we, here, what can we do 
to help you track these outcomes more successfully down the 
road to see where we are and make adjustments as we go? And I 
will go down the line.
    Mr. Coy. I will go ahead and start off, Mr. Chairman.
    I think tracking long-term outcomes is an incredibly 
valuable tool as we go forward. We have discussed with our 
partners a number of different things. One thing that we are 
doing and we are putting together is putting in our voice of 
the veteran survey TAP and making sure we are working with our 
partners to make sure that we ask the right questions and the 
right amount of questions as well. We also are looking at ways 
that we could possibly do longitudinal approaches. We do 
longitudinal studies in both VRE and education, and we are 
looking at ways that we could add TAP to that mix. And then 
most certainly, I think, Mr. Chairman, you referenced it in 
your opening statement, we recently released our economic 
opportunity report. It is the first that we have ever done and 
we plan on making TAP also a part of future economic 
opportunity reports, as well.
    Ms. Gerton. DoL does track the long-term outcomes of 
individuals who receive services at an American Job Center. We 
track three particular metrics, entered employment, retained 
employment, and average six-month salary.
    Beginning in 2013 we added a field that asked incoming 
veterans for services at American Job Centers whether or not 
they had participated in the TAP program within the last three 
years. As states implement that new data element in their 
reporting systems, we are beginning to gather information about 
the outcomes of TAP participants, as distinguished from other 
veterans who may not have gone through that. As that reporting 
process matures, we will have better outcome-related data to 
TAP participants who do get services through an American Job 
Center.
    We are also working very closely with our colleagues in DoD 
to create an opt-in field for servicemembers when they go 
through the Capstone counseling that will allow them to provide 
personal contact information for eventual follow-up by DoD 
counselors so that we can have a better long-term picture of 
what is going on with them as they transition. As we mature 
that collection process with DoD, we will keep you informed.
    Dr. Wenstrup. Well, that is one of my questions you 
mentioned there, is how you are maintaining that communication, 
and is it by email? Is it by telephone? Are they coming in to 
meet with you? Are they coming in six months later? A year 
later? Two years later? What is the timeline and how are you 
maintaining that communication?
    Ms. Gerton. Right now our maintenance records track 
individuals who are receiving services at the job centers and 
then they become part of our long-term record. We don't, at 
this point, have the means of communicating with individuals 
who haven't opted to provide their personal contact information 
to our job centers, so that is what we are working on with DoD.
    Once we do that, then we will have the data transmission 
and sharing agreement with DoD that will allow us to maintain 
that contact. We hope to contact that local outreach push that 
out through our job centers.
    Dr. Wenstrup. So in that vein, is there something that we 
need to be doing here?
    Ms. Gerton. I think in terms of getting that communication 
and data sharing underway, we have all the support that we 
need. In the longer term, there may be issues relating to DoL's 
ability to track individuals to their long-term wage records 
that would allow us to have a better long-term perspective on 
an individual's outcomes over their life cycle.
    Dr. Wenstrup. Currently, what is your timeline? For those 
that you do have that communication set up, what is your 
timeline? Are you checking with them again after they get a 
job? Are you checking with them again in six months? Are they 
still there? Are you checking with them in a year?
    Ms. Gerton. We track their outcomes for the three quarters 
after they have received their last service. So did they enter 
employment in the quarter following their last American Job 
Center service? Then we look to see if they had wage records in 
the next two quarters. And we follow that through until there 
was some reason that they needed American Job Center services 
again, they would come back into the survey.
    Dr. Wenstrup. Okay. Thank you.
    Dr. Kelly.
    Ms. Kelly. Well, we recognize that data tracking and the 
tracking of our servicemembers as they went through the 
redesigned TAP would be a concern, so what we have done is we 
developed, through the Capstone process, which is part of the 
TAP redesign, is a completion of a new defense form. So every 
single servicemember who is transitioning and separates, just 
like they get a DD214 also gets a new copy of this form. That 
data is fed to the Defense Management Data Center and we have 
established a web service that will allow our partners to tap 
into that data and track those servicemembers. That IT 
architecture and those business cases and those approvals are 
still going through the processes right now.
    But what we are also doing through DMDC, again, it is the 
Defense Manpower Data Center, is to actually pilot with eight 
states the flow of the data from the DD214 on every 
servicemember to each of those states. We are piloting that 
because as you go to each state, the ability of the states and 
the local communities to capture that data and to secure that 
data varies from one state to the next. So it is an IT 
architecture issue within each one of the states that has to be 
addressed. But we started that pilot in January and we will see 
how that progresses and report out to you the results of that 
once that pilot is completed.
    Dr. Wenstrup. Thank you very much.
    I now recognize Ranking Member Takano for five minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Ms. Gerton, you mentioned that servicemembers must meet 
career-readiness standards. Can you--what does that mean?
    Ms. Gerton. These are established in a partnership with 
both the Veterans Affairs agency and the Department of Defense 
in terms of what the servicemembers must be prepared to 
demonstrate in terms of which career track they plan to take. 
For example, if they are going to go to higher education, there 
is a checklist of things that they need to demonstrate.
    If they are looking to get a job, from our perspective, 
they have to demonstrate that they have completed the basics of 
the exercises in the TAP class. They have to present a resumes 
and a cover letter. They have to provide the results of their 
skills assessment. They have to show that they have done a 
local market job survey so that they have assessed whether or 
not the positions that they are interested in are available in 
the community that they would like to go back to and an 
understanding of the salary range that might be appropriate for 
them. And then they have to demonstrate that they have looked 
for or have made progress towards getting some job interviews.
    If they haven't, then they go back through for remediation 
processes, either back through TAP, back through additional 
counseling, or in our case, they may be referred to the local 
American Job Center for additional intervention.
    Mr. Takano. Can you incorporate the concerns about soft 
skills mentioned by the earlier panel into the career-readiness 
section?
    Ms. Gerton. We take all the input from our stakeholders 
very seriously. We are sort of limited in the amount of time we 
have to communicate the material in the TAP class. We have 
basically three days, eight hours a day to get them all the way 
through all the basic fundamentals of how to do a job search. 
We do an annual curriculum review; in fact, just this week, we 
are rolling out our new curriculum that replaced some outdated 
information, adds in information about disability, 
entitlements, education about the Veterans Employment Center, 
and some of the other new tools that are available. We do that 
on an annual cycle and we are getting ready to kick off another 
annual curriculum review here in the next couple of months, so 
we will certainly take that under advisement.
    Mr. Takano. This might not be under your purview, it might 
be under Mr. Coy's, but is there any point, you know, an 
emphasis on this career-readiness standards, assessing whether 
or not--what about the college-readiness, I mean, in terms of 
whether--obviously we don't do enough of the assessment of 
whether students are ready actually to go to college, but can 
you comment on that Mr. Coy.
    Mr. Coy. Absolutely, Congressman Takano.
    As you know from past years, this is also a subject that I 
am passionate about as well. What is interesting with the 
students that we see coming out, we don't know how many of 
those students require remedial training or not, but often 
times as we go through this process, I tell folks that 36 
months of Post-9/11 G.I. Bill benefits is two semesters for 
four years and there is not much room for do-overs that are in 
there.
    So we share your concern as well about remediation. It is 
one of those things that we saw in our public-private 
partnership strategy that Ms. Cloud has been working on. We, 
right now, have an organization called Coursera and they are 
offering a free online remedial-type course on the Veterans 
Employment Center. So we are doing those kinds of things. 
Interestingly, as well, SVA has come out with a mentor-type 
program where they also provide those kinds of things.
    And then the other final thing is we currently have a 
VetsSuccess on campus counselor on 94 campuses across the 
country. We are hoping to expand that, as well, where we have 
VR counselors literally on campus full-time.
    Mr. Takano. That is wonderful.
    Dr. Kelly [continuing]. I want to thank you, Mr. Coy, Dr. 
Kelly, I want to commend the Department of Defense for it is 
Military Life Cycle concept. I am just wondering if there is an 
opportunity for you all to think about when a servicemember 
might identify an interest in a higher education, and if there 
is a possibility of being able to assess that student or that 
servicemember in terms of their college-readiness and then find 
ways to encourage that student years before, sometime before 
they exit to begin to address any readiness issues they might 
have, and even if the Defense Department could encourage that 
to happen?
    Ms. Kelly. Well, I wish the DoD could take credit for the 
Military Life Cycle TAP singularly, but that was a concept that 
was developed by the Task Force and was the bedrock of the TAP 
redesign. We developed the transitioning GPS curriculum, 
reverse engineered it to build the career-readiness standards, 
but all along, the fourth recommendation to the president was 
to embed that entire curriculum across Military Life Cycle 
touch points.
    So, for instance, to your point about assessments, one of 
the career-readiness standards is an educational assessment and 
that is to be done at the first duty site of the 
servicemembers, so that is a career-readiness standard.
    Mr. Takano. I would love to get hold of that material from 
the DoD.
    Ms. Kelly. Sure.
    Mr. Takano. Wonderful. I commend you all for doing that.
    Ms. Kelly. Happy to provide it.
    Dr. Wenstrup. They are going to be calling the votes in 
about five minutes. Hopefully we can get through the members' 
questions before we have to go, and with that, I recognize Ms. 
Radewagen for five minutes.
    Ms. Radewagen. My pleasure.
    As part of the Capstone event, the TAP MOU requires that a 
commander sign off if the servicemember meets the career-
readiness standards. What type of training are commanders, or 
really their designees, being given to ensure that they are 
qualified to make such a distinction, and what happens if the 
commander does not sign his paperwork?
    Ms. Kelly. Actually, each one of the services was required 
to provide their plan on how they were going to educate the 
commanders for their new responsibilities for the entire 
transition GPS, as well as that Capstone. So that is taking 
place in the service schoolhouses, commanders' and leadership 
courses right now. The commanders, or someone in the chain of 
command, it is a mandate to have those career-readiness 
standards reviewed and signed off by the commander or the 
commander's designee, as well as the transition staff because 
commanders may or may not have the expertise in all of the 
career-readiness standards. So the review is first conducted by 
the transition staff. It's also signed off by the 
servicemember.
    If a career-readiness standard is not met in the 
servicemember's personal goal pathway, if you allow me that 
word, the warm handoff to one of our partner agencies is also 
documented. So the staff member to whom that warm hand-over is 
given is actually documented again on that DD form.
    We are not seeing a problem with either the commanders or 
the commander's designee signing off on those DD forms.
    Ms. Radewagen. Thank you, Mr. Chairman.
    Dr. Wenstrup. Thank you.
    Ms. Rice.
    Ms. Rice. Thank you, Mr. Chairman.
    This is for Ms. Gerton. During the DoL's Employment 
Workshops, are private sector employers brought in to do mock 
interviews, and if so, are you getting feedback to the 
servicemembers on their interview performance? I mean is there 
any aspect of private sector involvement?
    Ms. Gerton. So, actually during the eight hours a day for 
the three days, we do not have private sector involvement. The 
mock interviews are managed within the classroom itself and 
individuals are provided feedback on their performance through 
the instructor staff, the facilitators; however, at the 
discretion of the individual TAP managers on the bases, they 
may be able to bring in private sector folks around the 
curriculum to have additional conversations with the 
servicemembers, especially those that are in the practice of 
hiring veterans, I think that would be----
    Ms. Rice. Thank you. I yield back my time. Thank you.
    Dr. Wenstrup. Thank you.
    Ms. Titus, you are recognized for five minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    I would like to ask you, Mr. Coy, a question about how you 
explain VBA benefits to separating servicemembers as part of 
the TAP program, especially benefits for same-sex couples. As 
you know, the Department of Defense recognizes marriage 
equality and provides marriage benefits to all families of 
active duty members of the armed services; unfortunately, due 
to an outdated law, the VA is unable to provide benefits to 
married couples in a few states that are home to a large number 
of veterans.
    So that means that an active-duty member can have access to 
certain benefits on Monday and lose them on Tuesday as he or 
she separates from the armed services. Now, I don't think that 
is fair, but this committee last year voted to continue the 
injustice.
    Now, you said that TAP is the front door to the VA, but 
apparently there is no welcome mat in front of that door for 
some of our veterans. So how do you explain to them that these 
are the benefits that they will or will not be getting when 
they go through the TAP program?
    Mr. Coy. Congresswoman, I couldn't agree more that we need 
to get better at explaining the same-sex benefits. We do the VA 
benefits, and as I mentioned, a four-hour course and a two-hour 
course. VA has fully embraced the same-sex marriage provisions. 
There are statutory things that are in the way of that, and so 
we are sometimes caught in the middle of that, if you will, 
from that perspective, but we try to explain as best we can to 
our servicemembers as they are going through their VA benefits 
briefs.
    Ms. Titus. Thank you.
    I yield back.
    Dr. Wenstrup. Well, thank you.
    If there are no further questions, I want to thank everyone 
here today for taking time to come to share your views on this 
critical program. As I have said before, I believe that if we 
can get TAP right and effectively prepare our transitioning 
servicemembers for life after active duty, we can probably 
mitigate a lot of the problems and issues that our veterans 
face.
    Finally, I ask unanimous consent that all members have five 
legislative days to revise and extend their remarks and include 
extraneous material.
    Without objection, so ordered.
    The hearing is now adjourned.
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]
                              Appendix
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
